March 26, 2009

JORDAN M. SMALL
VICE PRESIDENT, DELIVERY OPERATIONS

SUBJECT:     Management Advisory – Management of City Letter Carriers’
             Street Performance (Report Number DR-MA-09-001(R))

This report presents the results of our response to a Postmaster General request on
Management of City Letter Carriers’ Street Performance (Project Number
08XG026DR001). The objective was to determine if management could strengthen
controls to reduce carrier misconduct. This review addresses operational risk. See
Appendix A for additional information about this review.

Conclusion

More than 222,000 city letter carriers deliver mail for the U.S. Postal Service. In recent
years, the U. S. Postal Service Office of Inspector General (OIG) Office of Investigations
(OI) has found a small percentage of carriers engaging in misconduct, ranging from
theft of time to inappropriate behavior, while delivering the mail. Management was not
always aware of the misconduct for two main reasons.

   •   City carriers are usually unsupervised during street delivery, especially when
       compared to the supervision received while casing mail in the office.

   •   Delivery unit management did not always effectively use available controls, such
       as performing street observations and reviewing operational reports that could
       help identify these situations.

We also found opportunities for the Postal Service to use controls such as Global
Positioning System (GPS) technology and the city letter carriers national labor
agreement discipline and compensation provisions as options to thwart these
occurrences. More attention to preventing and identifying these incidents when they do
occur may help the Postal Service avoid, among other things, payments to carriers for
time that did not involve legitimate activities and the potential damage to the Postal
Service’s brand and reputation.
Management of City Letter Carriers’ Street Performance                                      DR-MA-09-001(R)



Carrier Misconduct

In the last 3 years, the OIG OI initiated 1,0311 cases involving city letter carriers
allegedly engaging in non-work activities on routes. Examples include 319 cases
involving theft of government time, 301 inappropriate conduct cases, and 263 cases
involving alcohol- and narcotics-related offenses.

The Postal Service has operational tools and reports to identify and help prevent carrier
misconduct. However, we found:

         •   Postal Service policies were inconsistent regarding the number of Delivery
             Operations Information System (DOIS) reports that Supervisors must review
             daily.

         •   One important daily DOIS management report was difficult and cumbersome
             to use.

         •   Supervisors did not always discuss performance issues with carriers, conduct
             street observations, or take corrective action when misconduct occurred.

         •   Foreign posts were experiencing similar misconduct issues.

         •   OI investigations resulted in some city letter carriers receiving disciplinary
             action such as removals, suspensions, and letters of warning. However,
             based on the results from grievance arbitration procedures, disciplinary
             actions can be reduced or removed.

         •   City letter carriers receive compensation on an hourly basis instead of
             through a set evaluated compensation system.

         •   The number of routes and the geographical area covered reduced
             Supervisors’ ability to provide effective “real-time” monitoring through street
             observations.

The Chicago District is currently testing GPS technology on 500 routes, and the
technology is having some success in reducing overtime hours. Moreover, the
installation of GPS technology provides a greater opportunity to monitor route activities
in real time and reduce undue city letter carriers’ time charges. The OIG’s analysis of
overtime found monetary savings of $1,040,235 can be achieved through deployment of
400 GPS devices2 in the Chicago District over the next 2 fiscal years (FY). We will


1
 These are the actual number of cases identified by OI and may not include all incidents.
2
 The Postal Service plans to reassess GPS implementation nationwide following the Chicago District pilot. The OIG
plans to further analyze selected districts that could benefit from GPS technology using results from our City Delivery
Performance Analyses and Risk Indicator Scans model.




                                                           2
Management of City Letter Carriers’ Street Performance                  DR-MA-09-001(R)



report this monetary impact as funds put to better use in our Semiannual Report to
Congress.

The Postal Service incurs financial losses when city letter carriers engage in
inappropriate activities during duty hours and receive pay for time that did not involve
legitimate mail delivery activities. Additionally, these behaviors can lead to negative
media reports and be very damaging to the reputation of the Postal Service and
detrimental to its brand/image. Finally, the Postal Service may be liable for injuries and
damages suffered by the public because of certain letter carrier misconduct. See
Appendix B for additional information about this issue, and Appendix C for our detailed
analysis of monetary impact.

Recommendations

We recommend the Vice President, Delivery Operations:

1. Revise existing Postal Service policies and Standard Operating Procedures to
   reduce the number of required Delivery Operations Information System reports from
   eight to four to aid Supervisors in managing carrier street performance.

Management’s Comments

Management disagreed with the wording of the recommended action, stating that these
eight reports represent less than 20 percent of all available DOIS reports. Management
believes the eight reports provide critical data to run an efficient daily delivery operation.
However, management plans to review all existing reports in DOIS with a goal of
reducing the total number of reports to meet operational needs, and plans to include
funding to support the needed changes to the DOIS as part of the FY 2010 budget
cycle. See Appendix D for management’s comments in their entirety.

2. Modify the Delivery Operations Information System Route/Carrier Daily Performance
   Analysis Report to show “exceptions” – i.e., only actual route times varying from
   projected route times.

Management’s Comments

Management disagreed with the wording of the recommended action, but provided an
alternative planned action that should correct the problem. Management stated that if
the Route/Carrier Daily Performance Analysis report was modified, Supervisors would
not be able to recognize data integrity issues on the remaining routes in the unit.
However, management agreed that exception reporting has value and agreed to
explore developing an additional report that displays only variances to projections with a
space to annotate performance discussions. Management plans to accomplish this
action by March 31, 2010.




                                                    3
Management of City Letter Carriers’ Street Performance               DR-MA-09-001(R)



Evaluation of Management’s Comments

Management disagreed with the recommended action for recommendations 1 and 2,
but provided alternative planned actions that should correct the problem. The OIG
considers management’s comments responsive to these recommendations and
corrective actions should resolve the issues identified in the report.

3. Reinforce to delivery Supervisors and Managers the importance of holding
   performance discussions with city letter carriers, conducting street observations, and
   taking corrective actions for misconduct issues.

Management’s Comments

Management agreed with this recommendation. They plan, by March 31, 2009, to issue
a memorandum to field Managers to reinforce the importance of discussing
performance, conducting street observations, taking corrective actions, and holding
performance discussion with city letter carriers.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 3 and
corrective actions should resolve the issues identified in the report.

4. Study the costs and benefits of converting the existing city letter carrier hourly
   compensation system to an evaluated compensation system similar to that of rural
   letter carriers. The analysis should include the Postal Service costs being incurred
   for street observations and grievances.

Management’s Comments

After further discussions, management altered their initial response to recommendation
4 and agreed with it in their subsequent comments dated March 11, 2009.
Management stated the concept of moving the city carrier hourly compensation to more
of an elevated compensation system similar to rural letter carriers is desirable; however,
many previous efforts to move in this direction have not been successful. Management
plans to continue studying the feasibility and exploring all options to move city letter
carriers to a more rural-like compensation system. See Appendix E for management’s
revised comments for recommendation 4.




                                                    4
Management of City Letter Carriers’ Street Performance               DR-MA-09-001(R)



Evaluation of Management’s Comments

The OIG considers management’s March 11, 2009, comments responsive to
recommendation 4 and corrective actions should resolve the issues identified in the
report.

5. Deploy additional Global Positioning System technology for 400 motorized city
   routes in the Chicago District for more effective monitoring and tracking during street
   delivery.

Management’s Comments

Management partially agreed with our recommendation and provided an alternate
solution. Management did not feel the need to expand through purchasing additional
GPS devices for the Chicago District, since 500 units were deployed during 2008.
Management stated these 500 devices provide GPS coverage for approximately one-
fourth of Chicago’s mounted delivery routes, and district management has the latitude to
transfer the GPS devices to the other sites where warranted. Additionally, management
stated the initial response to GPS has been positive, and GPS is currently being
deployed in the Albuquerque and Northern Virginia Districts. In a meeting with the OIG
on February 4, 2009, management further stated that funding had been received to
provide 500 devices for each of the other Postal Service areas. Since management can
transfer the current GPS devices to the 400 vehicles in the other Chicago delivery units,
as recommended, they can achieve the intent of our recommendation without the
investment of the $103,600 for additional GPS devices. As a result, in a subsequent
meeting with management on February 18, 2009, management agreed in principle with
the monetary impact.

Evaluation of Management’s Comments

The OIG considers management’s comments to this recommendation responsive, and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1, 2, 3, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed. We will report $1,040,235 of
funds put to better use in our Semiannual Report to Congress.




                                                    5
Management of City Letter Carriers’ Street Performance               DR-MA-09-001(R)



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Missions Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    James W. Kiser
    Jo Ann Feindt
    Steven J. Forte
    Kenneth W. Hale
    Gloria E. Tyson
    Katherine S. Banks




                                                    6
Management of City Letter Carriers’ Street Performance                                 DR-MA-09-001(R)



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

On September 1, 2005, the OIG OI initiated the “Carrier Observation Program” based
on allegations of letter carrier misconduct received from various sources nationwide
including:

    •   Hotline allegations.

    •   Surveillance of Postal Service vehicles parked outside bars or similar
        establishments for prolonged periods.

    •   Contact with Postal Service Supervisors, Station Managers, Postmasters, and
        District Managers.

The Carrier Observation Program covered misconduct committed by letter carriers who
were on duty, in uniform, and in public view. These investigations included – but were
not limited to – letter carriers purchasing or consuming alcohol, selling illegal narcotics,
driving with suspended state drivers’ licenses, and deviating from their routes to conduct
non-Postal Service business. In addition, Special Agents reviewed Overtime Usage
Reports and Managed Service Points (MSP) Exception Reports to identify excessive
early, late, or missing scans3 that recurred over time for the same letter carriers and
compared workload and resource usage.

The Postal Service designed the DOIS to assist delivery Supervisors in managing daily
carrier operations, maintaining consistent Time of Day Delivery, and increasing the time
available to perform street observations. The DOIS provides 42 reports that
Supervisors and Managers can use on a daily, weekly, and monthly basis. These
reports provide information on daily workload management, performance, planning and
scheduling, route and unit maintenance, and street management. With these reports,
Supervisors can discuss performance expectations and monitor performance issues
with carriers.

During FY 2008, Postal Service Headquarters Delivery officials decided to conduct a
pilot test of GPS devices to more closely monitor and track vehicles. GPS provides real
time data on carrier street performance and monitors driver performance. The Postal
Service installed GPS devices on 500 vehicles in the Chicago District, and established a
set of monitoring parameters and exceptions that include traveling outside the
established geo-fence,4 speeding, idling and parking in one place for too long.


3
  MSP is a tool to improve consistency of delivery times and enhance street management using the Mobile Data
Collection Device (MDCD). City carriers use MDCDs to scan bar-coded labels placed at predetermined service
points on the carrier’s route.
4
  Invisible boundaries based on GPS coordinates.




                                                        7
Management of City Letter Carriers’ Street Performance                                  DR-MA-09-001(R)



The GPS device is Internet based, real time, and operated by satellite signals.5 The
device has no software to maintain or install and includes an alarm feature to notify the
district office if the vehicle goes to a preprogrammed off-limits site.6

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our review was to determine if management could strengthen controls
to reduce carrier misconduct. To accomplish our objective, we reviewed OI background
information on Carrier Observation Program cases and randomly selected 166 closed
investigative cases, out of the 1,031 open, pending and closed cases over the last 3
years, to review the types of misconduct. The investigative files contained
documentation of the investigators’ observations of city letter carriers during street
delivery, but case files did not provide the root causes of the misconduct.

We reviewed and analyzed DOIS documentation and applicable policies and
procedures to evaluate performance reports available to Supervisors for managing
office and street performance. We conducted interviews with Supervisors and
Managers and observed the day-to-day operations in four judgmentally selected
delivery facilities within the Great Lakes Area – Chicago District and the New York
Metro Area – Long Island District.

We selected a sample of 62 weeks of delivery units’ overtime to review opportunities in
delivery units to decrease workhours. In addition, we considered results from the
Carrier Observation Program in Chicago to assist in determining which judgmentally
selected sites to visit. We used computer-processed data from the Web-based
Enterprise Information System (WebEIS) generated in April 2008 to obtain performance
metrics for the delivery units selected. We did not test controls over this system but
discussed the results of our analyses with Postal Service officials.

We also evaluated the Chicago District’s pilot program results involving the use of GPS
devices in vehicles. See Appendix C for our cost savings methodology pertaining to this
issue.

Finally, we developed and distributed a survey7 on mail carrier operations to foreign
posts to ascertain how they manage and monitor carrier performance.




5
  GPS is a worldwide radio-navigation system formed from a constellation of 24 satellites and their ground stations
that broadcast data and communicate specific locations. Advanced forms of GPS allow measurements more precise
than a centimeter. GPS receivers have been miniaturized to just a few integrated circuits and, as such, are becoming
more economical than in the past.
6
  Evaluation of privacy issues depends on several factors, including the specific application, the business
relationships involved , the limitations imposed on the tracking , and the jurisdictions and laws involved.
7
  We received responses from the Australia, Belgium, Royal Mail and Spain Posts.




                                                         8
Management of City Letter Carriers’ Street Performance                     DR-MA-09-001(R)



We conducted this review from May 2008 through March 2009 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management on September 9 and
December 9, 2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has issued three reports in the last few years related to our objective.

                                                                                       Monetary
                  Report Title                     Report Number   Final Report Date    Impact
Delivery and Retail Standard Operating             DR-MA-07-003    February 22, 2007     None
Procedures – National Capping Report
City Letter Carrier Operations – National          DR-AR-06-004     March 31, 2006     $7,061,060
Capping Report
City Letter Carrier Operations – Rio Grande        DR-AR-05-009    December 2, 2004      $92,726
District


The 2007 report summarizes nine area reports on standard operating procedures (SOP)
in Delivery and Retail Operations. We found opportunities to improve implementation of
the Delivery and Retail SOP within the Postal Service. Area management agreed with
our findings and recommendations.

The 2006 report identified opportunities to improve the management of city letter carrier
operations in the Pacific and Great Lakes Areas. Management agreed with our
findings, recommendations, and monetary impact.

The 2004 report outlined opportunities to improve management of city letter carrier
operations in the Rio Grande District. Delivery facility Supervisors and Managers did
not adequately match workhours with workload, effectively use DOIS to manage daily
operations, consistently perform street management or effectively use MSP to monitor
city letter carriers’ street time to correct negative trends. Management agreed with our
findings, recommendations, and monetary impact.




                                                    9
Management of City Letter Carriers’ Street Performance                     DR-MA-09-001(R)



                             APPENDIX B: DETAILED ANALYSIS

Carrier Observation Program Cases

In the last several years, a small percentage of city letter carriers have been identified
as engaging in misconduct while delivering mail. Management was not always aware of
the misconduct occurring on routes because city letter carriers are usually unsupervised
during street delivery, especially compared to the supervision received while casing mail
in the office. Further, management did not always effectively use controls, such as
street observations and reviews of operational reports that could identify these
situations. We also found opportunities for the Postal Service to use controls, such as
GPS and city letter carriers national labor agreement provisions for discipline and
compensation, to thwart these occurrences.

The 1,031 investigative cases represented a wide variety of misconduct, from theft of
time to inappropriate conduct to alcohol- and narcotics-related offenses. See Table 1.

                              Table 1. Carrier Observation Program Cases
                                           As of May 28, 2008
                                                                      Total        Total
                                                           Total    Number of    Number of
                                               Total    Number of   Open and      Closed
                                             Number       Closed     Pending     Case Files
                    COP Type                of Cases      Cases       Cases      Reviewed
        Alcohol-related                            138         118          20             9
        Drivers License-related                    104           90         14             7
        Inappropriate Conduct                      301         244          57            15
        Misuse of Government Property               20           20          0             1
        Narcotics-related                          125           86         39             4
        Theft of Time                              319         289          30          130
        COP Type Not Selected                       24           10         14             0
        Total                                    1,031         857         174          166
        Source: OIG OI

As Table 1 shows, the largest categories were theft of time, inappropriate conduct, and
alcohol- and narcotics-related.

    •    Theft of time category – investigators identified 319 theft of time cases. Of these,
         47 involved city letter carriers claiming 141 hours of unauthorized overtime.
         Postal Service Managers reported 32 percent of these theft of time cases to OI.
         Investigators observed carriers:

             o Going to gyms, tanning salons, and barbershops or picking up their
               children from school.
             o Going home after completing routes or extending and combining lunch
               with breaks.
             o Frequenting bars.



                                                   10
Management of City Letter Carriers’ Street Performance                              DR-MA-09-001(R)



            o Sitting idle in their Postal Service vehicles.

    •   Inappropriate conduct category – this included acts such as not disclosing prior
        convictions or workers’ compensation claims, soliciting money and gifts,
        receiving pay for delivering mail, engaging in misconduct with a child, and
        discarding or failing to deliver mail.

    •   Alcohol and narcotics category – these cases involved letter carriers consuming
        alcohol or using illegal substances while on duty and sometimes while driving
        Postal Service vehicles. Some city letter carriers also engaged in drug trafficking
        or other drug activity at home while on duty and during route deliveries. (See
        pictures below.)




                 Redacted                                                Redacted




    City letter carrier using illegal substance while        City letter carrier drinking alcohol while on
    on duty and driving a Postal Service vehicle.            duty and driving a Postal Service vehicle.

Street Management Criteria

The Postal Service has well-established oversight criteria for managing city letter
carriers during street delivery. Postal Service Handbook M-39, Management of Delivery
Services, requires Supervisors and Managers to perform street management duties.
Street management is an extension of office management. It is essential for delivery
Supervisors to accompany city letter carriers on the street, as needed, to be aware of
any conditions that affect delivery and/or carrier performance. When such conditions
are noted, Managers should act promptly to correct them.

In prior OIG work, we reported the Postal Service established internal controls and
management tools to assist Supervisors and Managers in performing street
management. The most critical duties and controls for street management included
holding city letter carriers accountable by reviewing prior day DOIS/MSP performance
reports, holding discussions with city letter carriers about missing MSP scans and not




                                                        11
Management of City Letter Carriers’ Street Performance                         DR-MA-09-001(R)



completing street delivery within the agreed upon time, and monitoring the end of tour
for unauthorized overtime.

Causes and Additional Controls

DOIS Management Reports. The number and type of reports Supervisors review can
vary daily. The DOIS has 28 daily reports providing unit and carrier level data. Postal
Service Headquarters officials, policies, and SOP designate eight of these daily reports
that Supervisors are to use to manage workhours to workload and to inform discussions
of performance expectations with carriers. However, the requirements for which reports
to use on a daily basis are inconsistent. See Table 2.

                                     Table 2. DOIS Management Reports
                                                           Supervisors Required to Use Certain
                                                                    DOIS Reports by:
                                                          Postal
                                                           HQ      DOIS    AMSOP II     Delivery
         Required DOIS Management Reports                Officials SOP    Guidebook       SOP
   Workload Status Report                                    X       X         X            X
   Route/Carrier Daily Performance Analysis Report           X       X         X            X
   Unit Daily Performance Report                             X       X         X            X
   Unit Feedback Report                                              X         X            X
   MSP Route Report                                          X       X         X
   MSP Overview Report                                       X       X                      X
   Missed Scans Report                                               X                      X
   Late Leaving/Returning Report                                     X         X
   Total Reports                                             5       8         6            6
        Source: Postal Headquarters (HQ), DOIS Daily Management SOP, AMSOP (Morning SOP) II Guidebook,
        and Delivery SOP

Eight reports can be somewhat cumbersome and time consuming for Supervisors to
review while trying to manage daily mail operations. With morning activities that include
measuring mail, negotiating overtime with carriers, and ensuring route coverage,
Supervisors need pertinent and readily available data to address specific carrier or unit
issues. Of the eight reports, Supervisors indicated the Workload Status Report and
Route/Carrier Daily Performance Analysis Report were the most critical and most often
reviewed. Supervisors also stated that the MSP Route Report and MSP Overview
Report were important in managing street performance.

We reviewed the eight reports to determine if any should be modified or consolidated.
Supervisors informed OIG that of the eight required reports, the Route/Carrier Daily
Performance Analysis Report is the report they use daily to manage each individual
route. Our review determined that management could modify the Route/Carrier Daily
Performance Analysis Report to assist Supervisors in better managing street
performance. This report provides Supervisors with individual carrier performance data,
which may identify carriers using time over the projected route time. However, the
report is difficult to use and we found that it:




                                                   12
Management of City Letter Carriers’ Street Performance                                 DR-MA-09-001(R)




    •   Did not provide exception reporting; therefore, Supervisors have to review each
        route and carrier line item to identify those carriers requiring performance
        discussions. Depending on the total number of routes and carriers in a unit, this
        report could be voluminous and require extra time to review and identify
        problematic routes or carriers.

    •   Did not provide Supervisors with a mechanism to annotate their notes or a
        signature block to verify they identified and discussed performance issues with
        carriers.

Although these daily reports provide operational information, in prior audits we learned
that Supervisors could not always effectively perform their duties and responsibilities
due to staffing and time pressures. Supervisors require relevant and pertinent data;
therefore, it is essential that management reports readily identify actionable data for
problematic routes the Supervisor can address immediately to correct operational
issues for the unit and performance issues with individual carriers.

Performance Discussions. Supervisors did not always use DOIS reports to discuss
performance issues with carriers. Our observations in the Long Island District showed
Postmasters and Supervisors reviewing the Route/Carrier Daily Performance Analysis
Report and maintaining a daily log of performance issues with carriers. In the Chicago
District’s Xxxxxxx xxxx xxx Xxxxxxxxx Stations, we observed Supervisors and
Managers not holding discussions with individual carriers who used extended time on
their routes the prior day. Management indicated that Supervisors did not always hold
discussions due to inexperience and time availability.8 Prior audit work has shown that
Supervisors believed other higher priority duties prevented them from reviewing reports
to take corrective actions.

Street Observations. We visited nine delivery units in the Chicago District, including
units where OI investigated carrier misconduct, to determine if Supervisors conducted
street observations. As indicated in Table 3, Supervisors did not consistently do so.
                           Table 3. Street Observations Conducted May 2008

                                                             Street Observations
                                                                 Consistently
                                    Delivery Units                Conducted
                            Xxxxxxxxx Xxxxxxx                          No
                            Xxxx Xxxxxxxx Xxxxxxx                      No
                            xxxxxxxxx xxxx xxxxxxx                     Yes
                            xxxxxx xxxx xxxxxxx                        No
                            Xxxxx x. Xxxxxxxxx xxxxxxx                 No


8
 Our observations are consistent with prior OIG audit reports, which also concluded that Managers and Supervisors
did not use or review DOIS reports timely to monitor or correct performance.




                                                        13
Management of City Letter Carriers’ Street Performance                                 DR-MA-09-001(R)



                                                             Street Observations
                                                                 Consistently
                                    Delivery Units                Conducted
                            Xxxxxx Xxxx Xxxxxxx                        Yes
                            xxxxxxx xxxx xxxxxxx                       No
                            Xxxxxxxx Xxxxxxx                           Yes
                            xxxxxx xxxx xxxxxxx                        No
                            Source: WebEIS

According to Managers and Supervisors, they did not consistently conduct street
observations primarily because they often had higher priority work such as route
inspections and attendance and overtime issues.

In prior OIG reports, we addressed the issue of Supervisors not consistently conducting
observations. Supervisors specifically expressed challenges in performing street
observations to include meeting critical timeframes for daily mail delivery operations,
unfamiliarity with MSP, and limited staffing.

Disciplinary Actions. The National Association of Letter Carriers Agreement with the
Postal Service outlines disciplinary actions for carrier misconduct and provides
grievance arbitration procedures to reduce or remove the discipline. The OI
investigative cases we reviewed showed that some of the city letter carriers received
removals, suspensions, or letters of warning. Employees can file a grievance to dispute
the issued disciplinary actions.

Prior OIG work cited that Supervisors generally did not administer grievance arbitration
procedures in accordance with all the national agreements. Specifically, Supervisors
neither made offers nor took action to resolve disputes because they felt a lack of
independence from the decisions involving disciplinary actions.9 More recently, OIG
work found that the Postal Service has implemented many initiatives over the past 5
years that have led to an overall reduction in the number of grievances filed and the
number of backlogged grievances.10

We did not review the Grievance Arbitration Tracking System to determine costs the
Postal Service may have incurred for grievances filed by carriers to remove or reduce
discipline for these misconduct occurrences. Prior OIG work found that payments for
specific grievances were difficult to track because there is no central source for
recording grievance payment information. Management plans to enhance the
Grievance Arbitration Tracking System by centralizing all grievance payment
information by early FY 2009.11
9
  OIG report titled, Effectiveness of Postal Service Grievance-Arbitration Procedures (Report Number LM-MA-99-002,
dated March 26, 1999).
10
   OIG report titled, Nature of Grievances and the Initiatives Taken to Reduce and Prevent Them (Report Number
HM-OT-05-001, dated September 30, 2005).
11
   OIG report titled, Grievance Settlement and Arbitration Award Payments (Report Number HM-MA-08-002, dated
September 16, 2008).




                                                       14
Management of City Letter Carriers’ Street Performance                                   DR-MA-09-001(R)




Foreign Posts. Survey results from foreign posts indicated they have experienced
misconduct issues similar to those discussed above, and they monitor carrier
performance much like the Postal Service does.

One additional tool our survey identified was used by Spain’s Post, which reports carrier
misconduct and inappropriate behavior to senior executives annually. Currently, there
are no periodic reports prepared for Postal Service senior executives showing individual
carrier misconduct. This type of report could provide senior management with trending
data of city letter carriers who engage in misconduct and inappropriate behaviors during
duty hours, giving visibility to the types and volumes of offenses. Ultimately, delivery
unit management, district, and area labor relations officials are responsible for carrying
out corrective actions on individual cases, but making senior executives aware of what
is occurring would give them important information with which to make decisions
regarding systemic corrective actions.

City Letter Carrier Compensation. The Postal Service compensates city letter
carriers on an hourly basis for all time recorded on the clock. Per the Fair Labor
Standards Act, the Postal Service must pay employees overtime for all hours in excess
of 8 hours per day. Supervisors are responsible for controlling all bargaining
employees’ hours and ensuring they complete their duties and clock out if additional
work is not necessary or the Supervisors have not authorized it. Supervisors are to
disallow time not worked and document that the employee was not working during that
period.

However, the Postal Service could avoid costs associated with unauthorized time12
incurred on routes if they converted city letter carriers to an evaluated compensation
system – similar to that of rural letter carriers. For city delivery, carriers can request
overtime based on mail volume changes occurring daily on their routes. The Supervisor
and the carrier negotiate on the amount of overtime required to deliver the mail on the
route for that day based on the workload or mail volume. As a result, city letter carriers
may not have an incentive to work more efficiently and could, in fact, take longer or
work slower on routes because of the possibility of receiving overtime. In contrast, an
evaluated compensation system, now used by rural letter carriers, pays carriers based
on an established agreed-to completion time for each route. This method motivates
carriers to complete their route as expeditiously as possible, since, for the most part,
carriers would not receive any overtime pay in excess of the established completion
time.

GPS Technology. In FY 2008, the Chicago District, with the assistance of Postal
Service Headquarters Delivery Operations, acquired new technology – GPS devices –
to assist in street management, monitoring, and tracking vehicles. The district installed
500 devices on vehicles assigned to 14 delivery units.
12
  “Unauthorized time” consists of time used during duty hours while engaged in non-work related activities and
overtime Supervisors have not approved.




                                                         15
Management of City Letter Carriers’ Street Performance                                  DR-MA-09-001(R)




We reviewed overtime charged from September 2007 through December 2008 in these
14 units. During this time, these units experienced a 40.3 percent decline in overtime,
while the overtime percentage for the selected units without GPS decreased by 34.9
percent. We attribute the difference – 5.4 percent – to the installation of GPS.

District management informed the OIG that they began monitoring GPS activity at the
district level to minimize any concerns with Supervisors’ fairness in monitoring the
system and to determine the best use of the vehicle fleet – not to specifically focus on
carrier performance. GPS along with consistent street observations, where needed, will
have a greater impact when management has concrete and usable data on the delivery
process.

We reviewed street management data and determined further incremental deployment
throughout the district would provide additional geographical area coverage and more
effective “real-time” monitoring. Our analysis showed that deploying GPS devices on
400 motorized city routes13 could have a net savings of over $1 million over the next 2
fiscal years in the district. See Appendix C. Postal Service Headquarters management
agreed with the OIG that further, gradual GPS deployment would be beneficial in the
Chicago District.

Impact of City Letter Carriers’ Inappropriate Behavior

The Postal Service incurs financial loss when city letter carriers engage in inappropriate
activities during duty hours and receive pay for hours that did not involve legitimate mail
delivery activities. Along with the cost impact, misconduct occurring on city routes can
have operational and safety consequences as well. Delays in delivery can negatively
affect service scores and spur customer complaints. Moreover, these types of
behaviors can result in negative media reports detrimental to the Postal Service’s
brand/image and damaging to its reputation. Finally, Postal Service employees may
injure themselves with some of the behaviors, and the Postal Service may be liable for
injuries and damages the public may suffer because of certain city letter carrier
misconduct.




13
  OIG reviewed Chicago District street management performance data for all delivery units. We segmented the 14
units with GPS devices from the listing to review and analyze overtime hours. Based on the analysis of the remaining
units’ overtime hours, number of routes, number of units and discussions with management, we determined a gradual
deployment of 400 GPS devices would be the most effective.




                                                        16
 Management of City Letter Carriers’ Street Performance                                       DR-MA-09-001(R)



                           APPENDIX C: COST SAVINGS CALCULATION

 The OIG identified $1,040,23514 in funds put to better use by deploying 400 additional
 GPS devices in the Chicago District.

                                              GPS Investment Costs

                                                        Investment Cost
                                                                                                                   FY 2008
                                                             Investment                                         Overtime (OT)
                                             GPS              Costs For                           Annual          Hours for
                            Total        Installation       Additional 400    Subscription     Subscription         Units
                          Number of        Cost per           Motorized       Cost per GPS          Cost        Proposed To
                                                                                                     st
             District      Vehicles         Route              Routes            Device      (after 1 Year)     Receive GPS
             Chicago         400            $259              $103,600           $22.95         $110,160           317,600

                                   Estimated Value of Overtime Due to GPS Installation
 All Units    GPS Units
 Without      OT Hours     GPS Units
 GPS OT        For 31      OT Hours                        Estimated                         Estimated
Percentage     Weeks        For 31                         Percentage                         FY 2009
 Decrease     PRIOR To      Weeks        GPS Units          OT Hours          Estimated       Carrier
  Over 62       GPS         AFTER        Percentage       Reduced Due         Annual OT      Overtime      Annual Value Of OT
  Weeks                      GPS          Decrease           To GPS          Hours Saved       Rate           Hours Saved
   34.9      214,136.69    127,872.39       40.3               5.4            17,150.40       $36.75          $630,277.50
                                                   Estimated Cost Savings



                 GPS         Cost Of                          First Year
             Investment     Annual OT                        Savings Less
                Costs      Hours Saved     Investment        Subscription        Total
                                                                     15                16
                (Note)     Due To GPS     Year Savings          Cost           Savings
              $103,600     $630,277.50     $520,117.50        $520,117.50      $1,040,235




                                                                
                                                                
                                                                
                                                                
                                                                
                                                                
                                                                
                                                                

 14
    We computed the GPS investment cost using the cost data provided by management based on the current GPS
 contract. We estimated 17,150.4 OT hours saved by multiplying the percentage of decrease in overtime hours in the
 14 units with GPS times the FY 2008 OT hours for the units proposed to receive GPS. We then calculated the dollar
 value of overtime savings by multiplying the city letter carrier overtime rate of $36.75 times 17,150.4 estimated
 overtime hours saved. Our projected net savings over 2 years is the dollar value of overtime hours saved less the
 GPS investment costs.
 15
    GPS units are already available and will be redeployed to the 400 vehicles noted above at no additional investment
 cost.
 16
    Since the 400 GPS devices are a subset of the 500 devices placed on vehicles in April 2008, the first year savings
 on subscription costs do not apply.




                                                              17
Management of City Letter Carriers’ Street Performance   DR-MA-09-001(R)



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                   18
Management of City Letter Carriers’ Street Performance   DR-MA-09-001(R)




                                                   19
Management of City Letter Carriers’ Street Performance   DR-MA-09-001(R)




                                                   20
Management of City Letter Carriers’ Street Performance   DR-MA-09-001(R)



                 APPENDIX E. REVISED MANAGEMENT’S COMMENTS




                                                   21
